21-5059
IN THE
^
SUPREME COURT OF THE UNITED STATES

* *

GREGORY A. AUSTIN,
Plaintiff and Petitioner,
vs.
STATE OF CALIFORNIA
as Represented by
Defendants and Respondents of Its
Superior Court Judiciary Branch, Family
Law Division, Begert, Colfax, Flores, and
Wiley, Massulo, et al.

)
)
)
)
)
)
)
)
)

Case No:
PETITION
FOR
WRIT OF CERTIORARI

)
)
)
)
)

PROPOUNDING PARTY:

Gregory A. Austin

RESPONDING PARTY:

State of California

I, GREGORY A. AUSTIN, hereby formally request Writ of Certiorari to present my case
before the United States Supreme Court.

My contact information is as follows:
Gregory A. Austin
824 E. Swift
Fresno, CA 93704
Phone (425) 205-3462
Email surrendered2win@gmail.com

RECEIVED
JUL - 7 2S21

Austin v. California

Monday, June 28, 2021

Question(s) Presented
My case challenges the authority and practices of California’s divorce industry, and hence,
collectivism in general, by virtue of posing the question, “Who, in reality, owns the marriage—
The State, or its individual United States citizens who freely associate and reside within it?”
Based in this overall question are these related questions:
Has California authority to license holy matrimonies?
Has California authority to institute marriage, and hence its divorce industry, under state
venue?
Has California authority to define the terms of the holy matrimonies it licenses?
Has California authority to racketeer (solve the problem it causes) its no-fault divorce industry
by nullifying a marriage contract under agreement of only one signatory, terminable at will?
Has California authority to mandate community property?
Has California authority to pass laws construed to deny or disparage the rights of individuals
through its practice of licensing communities (e.g. Marriage Licenses), beyond delineated
geographic boundaries, such as municipalities?
Has California authority to issue, without a criminal conviction, a stay-away order to an owner
from his own deeded real estate?
Has California the authority to, without due process, enforce the evictions of U.S. citizens from
their own solvent deeded real estates, without immediate compensation, for private use?
Has California authority to mandate family law, generally?
Has California authority to issue, without a criminal conviction, a stay-away order to an owner,
parent, and guardian, from his own child?
Has California authority to, without due process, usurp parental duties against their will?
Has California authority to, without due process, place minors at risk of predation?
Has California authority to, without due process, alienate from individuals their freedom of
speech, press, and the right to freely associate with their own family members?
Has California authority to issue to non-criminals seek-work orders when currently not
receiving state benefits specific to unemployment?
Has California authority to issue to non-criminals seek-higher-paying-work orders to employed
individuals when currently not receiving state benefits specific to unemployment?
Has California authority to punish its non-criminal residential citizens by revoking our
licenses, when those punishments do not pertain directly to the function of each license?
Has California authority to issue Titles Of Nobility through marriage license?
Has California authority to define the search criteria of seek-work orders to non-criminals,
when not currently receiving state benefits specific to unemployment?
Has California authority to sign, or order a signature, or override a signature on a stipulation
without criminal conviction or valid medical evaluation?
Has California authority to, without due process or valid medical diagnosis, represent the legal
will of individuals against their consent?

Page 2 of 5

Austin v. California

Monday, June 28, 2021

• Has California authority to kidnap children from legal guardians, then racketeer through Child
Support Services, as the result of its no-fault divorce?
• Has California authority to issue to non-criminal dependents seek-work orders, pursuant to
support of other dependents domiciled by the same head of household?
• Has California authority to employ individuals or groups biased toward support of groups or
individuals—such as Child Protective Services—beyond Californians?
• Has California authority to issue without a judge’s order civil standby escorts?
• Has California authority to invoke variables of custody or visitation inversely proportional to
monetary support of children?
• Has California authority to utilize as witness tax-funded entities—such as Child Protective
Services—that are biased toward groups or individuals, except Californians?
• Has California authority to differentiate orders between restrained persons and protected
persons?
• Has California authority to force individuals into tax classifications that are construed to deny
and disparage them from others?
• Has California authority to alienate rights without due process?
• Has California authority to invoke cruel and unusual punishment in exchange for no crime?
• Has California authority to revoke or suspend the right to bear arms without due process?
• Has California authority to commute criminal sentencing and its due process to a civil venue?
• Has California authority to decree restraint without custody?
• Has California authority to decree religious rehabilitation as punishment?
• Has California authority to racketeer the appropriation of assets in exchange for pleas to
commute criminal sentencing to civil venues?
• Has California authority to enforce onto its residential citizens political ideology in opposition
to the original US Constitution?
• Has California authority to, without due process in each case, through license, instantiate any
collectivist corporation construed to deny or disparage the rights of individuals?
• Has California authority to pass and enforce laws to generally favor collectivism at the expense
of individual rights?
• Has California the authority to, without due process, sell to its residents protection against its
own predation?
• Has California authority to, without due process, decree slavery and peonage?
• Has California authority to commit crimes against its individual residents?
• Has California authority to deny and disparage individual rights afforded to its corporations?
• Has California authority superior to The United States, as it refers its marital status of each
individual?
• Has California authority to confederate?
This list of questions pleads before the Supreme Court its consideration of my sum grievance,
“Who, in reality, owns the marriage—The State, or its individual US citizens who freely
associate and reside within it?” This list outlines my petition, a plea for investigation into likely
criminal indictment, RICO charges, and tort reparation.

Page 3 of 5

Austin v. California

Monday, June 28, 2021

List of Parties
All parties do not appear in the caption of the case on the cover page. Excluding federal courts
merely doing their jobs, a list of all parties to the proceeding in the court whose judgment is the
subject of this petition are as follows:
California State Superior Court of San Francisco, Family Division.
For Cases FDV-13-810610 and FDI-14-780775, consolidated, as represented by:
Hon. Judge Anne-Christine Massullo
Hon. Judge Michael I. Begert
Hon. Judge Linda Colfax
Hon. Judge Daniel Flores
Commissioner Rebecca L. Wightman
Hon. Judge Monica Wiley
Judgement Date decreed 2 June 2017, but failure of asset distribution keeps the case open.
and
California Department of Justice.
For CLETS enforcement and firearm confiscation
Attorney General
P.O. Box 903447
Sacramento, CA 94203-4470
California Child Support Services.
For license suspension, bank breech of security, peonage, seek-work orders, wage garnishing.
CSS
RO. Box 419064
Rancho Cordova, CA 95741-9064
California Child Protective Services.
For bias reporting as false witness to domestic violence, accomplice acting under color of law.
CPS
170 Otis St. (physical address)
San Francisco, CA 94120
Further mentioned is San Francisco, as a municipality, representative of The State of California,
under Governor Gavin Newsom.

Page 4 of 5

Austin v. California

Monday, June 28, 2021

Related Cases
Presented in reverse chronology are court cases on file that I have petitioned related to this
grievance, as follows:
Ninth Circuit

21-15191

Northern California District

3:20-CV-00900-CRB
Further Related:
3:15 -cv-00504-CRB
3:15 -cv-00505-VC
3:15-cv-00508-JCS
3:15-cv-00513-JD
3:15-cv-00514-SI
3:15-cv-00516-LB
3:15-cv-00526-LB
3:15-cv-00528-JD
3:15-cv-00533-HSG
3:15-cv-00534-WHA
3:15-cv-00535-WHO
4:15-cv-00511 - JSW
Renamed and consolidated:
3:15-cv-504-CRB
3:15-cv-506-CRB
3:15-cv-508-CRB
3:15-cv-504-CRB
3:15-cv-510-CRB
3:15-cv-511-CRB
3:15-cv-512-CRB
3:15-cv-513-CRB
3:15-cv-514-CRB
3:15-cv-516-CRB
3:15-cv-526-CRB
3:15-cv-528-CRB
3:15-cv-533-CRB
3:15-cv-534-CRB
3:15-cv-535-CRB
3:15-cv-1717-CRB

California Superior, Family Division

FDV-13-810610
FDI-14-780775, consolidated

Page 5 of 5

IN THE SUPREME COURT OF THE UNITED STATES

1

Question(s) Presented

2

List of Parties

4

Related Cases

5

PETITION FOR WRIT OF CERTIORARI

2

Opinions

2

My Rebuttal

3

Jurisdiction

7

Constitutional and Statutory Provisions Involved

8

Historic Foundation

10

Statement of The Case

12

More About Original Jurisdiction

17

Pleading the Exceptionally Common Nature of My Case

18

More Racketeering

22

Reasons For Granting The Petition

23

Summary

26

Problems Inherent to Proof Of Service

28

Conclusion

30

Pertinent References And Quotes

31

Appendix A

32

Appendix B

33

Appendix C

34

Appendix D

36

Appendix E

37

Austin v. California

Monday, June 14, 2021

PETITION FOR WRIT OF CERTIORARI
I, Gregory Austin, the petitioner, respectfully pray that a writ of certiorari issue to review the
judgment below.

Opinions
The opinion of the United States court of appeals appears at Appendix A, and the opinion of the
United States district court appears at Appendix B.
I concur with the appellate court’s decision that the district court’s dismissal of my case can be
construed as valid, apparently based on Rooker-Feldman [Rooker v. Fidelity Trust Co.. 263 U.S.
413 (1923) and District of Columbia Court of Appeals v. Feldman. 460 U.S. 462 (1983)]. We
further agree that this dismissal from both federal courts has not been based on the merits of my
case,1 neither on the basis of any claims of extrinsic fraud, nor on wrongful jurisdiction, nor
based on whether I have filed concurrent suit in state court. The reason for dismissal is unclear to
me, short of civil technicalities that deny my relief from California’s crimes, but it appears to
suggest guidelines for my pursuit that portend either Supreme Court appellate or original
jurisdiction venues to this petition’s Writ of Certiorari appeal to Writ ofHabeas Corpus denial.
Nevertheless, my petition for Writ of Habeas Corpus, or otherwise release from my restraining
order, has been denied by the district, as has my previous petitions for injunction. This case
dismissal appears to be based on the district’s opinions that Statute of Limitations on civil suits
has expired, and Custody notwithstanding Restraint decreed in divorce court, are both points to
invalidate my claims. In rebuttal to the dismissal by the federal courts, I claim that these points
instructed by the district, those in defense of the divorce courts, are not valid excuses, since my
petition(s) instead indicate a criminal case, not a civil one; I am powerless to prosecute the
defendants on criminal grounds, so habeas corpus is therefore merely a civil vehicle to petition
my criminal grievance.
In fact, my Related (District) Cases will reveal that early in my grievance against The State I
petitioned for relief through injunction from California’s racketeering and its criminality of the
divorce industry, which I claim is clearly an enforcement duty of the federal government.
Limiting statutes of timeliness on RICO charges are unclear,2 whereas the Statute of Limitations
on criminal charges is five years, today well within the dates of this appeal. Furthermore, my
currently active CLETS Restraining Order, decreed without due process for a total of eight years
in a civil venue, devoid of custody, is clear evidence of the criminality I claim in my petition
{see 3:15-cv-512-CRB).
1 Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280 (2005). The Court explained that
it “is confined to cases of the kind from which the doctrine acquired its name: cases brought
by state-court losers complaining of injuries caused by state-court judgments rendered before
the district court proceedings commenced and inviting district court review and rejection of
those judgments.” Id. at 284.
2 ricoact.com LLC https://ricoact.com/7Daae id=91
Page 2 of 37

Austin v. California

Monday, June 14, 2021

My Rebuttal
Mine is not a case of challenging res judicata, thereby overruling my state divorce court
decisions; instead, it is a case of challenging state divorce jurisdiction altogether as it relates to
the Bill of Rights. Therefore, the distinction between appellate versus original jurisdiction of
SCOTUS appears to me to be moot in its application of awarding my case a writ of certiorari.
In my case, this moot distinction between the appellate and original jurisdictions of SCOTUS,
however, presents vague procedural laws that have been revealed as the result of petitioning my
grievance. This vagueness appears to have laid the further groundwork that is an attitude of
subjectivity—a confederated political viewpoint and weaponized legalism—that has been
adopted by only certain members of The Judiciary.
To demonstrate this political division is the case of Bates v. Jones [131 F. 3d 843 - Court of
Appeals, 9th Circuit 1997] whereby the Ninth Circuit Court of Appeals has upheld a disturbing
opinion regarding Rooker-Feldman: “That the states have the freedom ‘to serve as a laboratory;
and try novel social and economic experiments without risk to the rest of the country.’
Specifically, the court’s holding appears (to the author) to adhere to the importance of federalism
and the Tenth Amendment in our system of government, even when the activity in question
seemingly treads upon interests protected under the First and Fourteenth Amendments.”3
The author continues, “In reality, however, although the majority’s decision avoided a direct
conflict between the federal and state courts, the Bates court failed to acknowledge fully the
important relationship between the state and federal systems.” In my case, I agree with the author
that a jurisdictional conflict between the federal and state courts exists, but I present that the
Tenth Amendment itself appears to pose no problem, since unalienable rights are already
delegated to We, The People, under the US Constitution, and the State is similarly already
prohibited from alienating those rights. Instead, the problem more clearly stems from
California’s sovereign immunity granted by the Eleventh Amendment, since that is construed to
alienate the rights of individual US citizens. The Eleventh Amendment thereby effectively
appears to be a problem to SCOTUS original jurisdiction, whereby its vague and cumbersome
fix is presently manifested as Rooker-Feldman, all at the expense of The Bill of Rights.
Further, the political attitude of these majority members of the Ninth Circuit Appellate that have
condoned the use of “novel social and economic experiments” I argue is not the intent of the
original US Constitution, since such social experiments can only be conducted at the expense of
its circuit’s individual litigants. Disturbing is the errant assessment that such social experiments
are “without risk to the rest of the country,” since their political nature is intended to influence
court precedent, and therefore groom social behavior, locally, nationally, and internationally.
Under this subjective political influence I have suffered the grievances hereby petitioned.

3 Snider. Blake A. Harvard Journal of Law and Public Policy: Cambridge Vol. 21. Iss. 3.
(Summer 1998): 881-894.
Page 3 of 37

Austin v. California

Monday, June 14, 2021

Nevertheless, as the current procedures and interpretations relate to my specific case, it appears
that if criminal cases against California can only be brought by the federal government, and the
accused are innocent until proven guilty in a court of law, then Amendment Eleven has
effectively alienated altogether my right to petition the government for a redress of grievances
against The State in cases where criminality is alleged. This would appear to hold true in all
cases, both criminal and civil, as long as The State is the defendant, regardless of the appellate
and original jurisdictions delegated to the Supreme Court. I beg to question this required legal
ban from my right to petition, since it can neither be the rightful interpretation of the law, nor the
sole remedy to cases of criminality under weaponized political state adjudication against its U.S.
citizens. It is my pleading stance that such an instituted practice flies in the face of the very Bill
of Rights, and further grants tyranny to The State, regardless of the statutory solution that is
Rooker-F eldman.
This firm distinction between criminal and civil case procedure, grounds that appear to have
altogether effectively undermined my right to petition my government for a redress of my
grievances against The State, stands in stark contrast to California’s legalized weaponry that it
utilizes against its residential citizens that is Prop 36. Prop 36 also disenfranchises individual
rights regarding petitioning grievances by instead undermining due process of individuals. Prop
36 undermines due process by allowing drug courts to try criminal cases in a civil venue, as long
as potential litigant losers agree to custody of drug or alcohol rehab. The result of these
conflicting statutory guidelines appear to have obfuscated my right to petition from both ends;
my rights have been altogether undermined by both federal and state practices. I have been
forced to observe strict civil statutory timeliness, while forbidden from bringing criminal suit
against The State at the federal level, but then I am also forced by The State, through
appropriation of my real estate, before an unwarranted drug court, into a civil venue that
routinely gives rulings on alleged criminality, yet devoid of due process. Both of these practices
together apparently prohibit my indictment of The State under all circumstances, thereby creating
a tyrannical state which is immune from indictment, all at the expense of my individual rights.
The alleged remedy for this absolution is the adoption of Rooker-Feldman, it appears. RookerFeldman, however, has been interpreted differently between districts and appellate courts,
thereby further confusing the issue. For example, in an opinion written by Judge Griffin, the
Sixth Circuit began by explaining that the Rooker-F eldman does not bar a district court from
exercising subject matter jurisdiction simply because a party attempts to litigate in federal court a
matter previously litigated in state court. Rather, it applies only to the “narrow ground” of “cases
brought by state-court losers complaining of injuries caused by state-court judgments rendered
before the district court proceedings commenced and inviting district court review and rejection
of those judgments.” As the Sixth Circuit explained, in determining whether Rooker-Feldman
bars a claim, courts must look to the source of the injury that the plaintiff alleges in the federal
complaint. If the source of the plaintiff’s injury is the state court judgment itself, then the
Rooker-Feldman doctrine bars the federal claim (evidently implying a state-appellate solution).

Page 4 of 37

Austin v. California

Monday, June 14, 2021

On the other hand, if there is some other source of injury, such as a third party’s actions, then the
plaintiff asserts an independent claim.4
Nevertheless, similarly, while applying these Rooker-Feldman principles, the Sixth Circuit
observed that “[t]he problem with the district court’s analysis is that it determined the source of
Evans’s injury without reference to his request for relief.”5 Evans was not seeking relief from
the domestic relations court’s decisions to deny him leave to proceed, but instead was seeking
injunctive relief against the Ohio Attorney General and the Franklin County Court of Common
Pleas from applying Ohio’s vexatious litigator statute against him in his divorce case. He also
was seeking “permanent injunctive declaratory relief where Ohio Revised Code 2323.52 is
unconstitutional as it applies to litigants designated vexatious who presently are, or subsequently
become, involved in cases of divorce and domestic relations.” Accordingly, the Sixth Circuit
concluded that “the source of Evans’s injury is Ohio’s allegedly unconstitutional present and
future enforcement of § 2323.52’s remedial provisions in divorce proceedings, not the domestic
court’s prior interlocutory decisions denying him leave to proceed,” and thus Rooker-Feldman
did not apply.6
The scope and application of Rooker-Feldman is unclear as applied to my case, opposed to other
cases. For example, in the case of Texaco, Inc, v. Pennzoil Co. [41 U. Miami L. Rev. 627
(1986-1987)/ cit. 729 S.W.2d 768 (Court of Appeals of Texas, Houston (1st Dist.), 1987)] the
details demonstrate how agreements can be consummated in a variety of ways - oral, written,
partially oral and partially written - and that a case-by-case analysis is the only way to determine
whether an agreement was made.7 Therefore, weaponized objectivity against individuals, and
simultaneous subjective State immunities, have obfuscated my right to petition my grievances,
and have furthered the foundation for the divorce industry in general. These tyrannies appear to
stem from Amendment Eleven, upon which Rooker-Feldman is a tenuous solution.

4 In my case, the claim to the district was independent, since my petition altogether questions
the constitutionality of the collectivist practices of family law, and hence community property
law, and corporatism in general. And although I was a state-court loser, my grievance
questions California’s authority to try these cases in the first place, and further demonstrates
the tendency for corruption resulting from improper venue. Although my petitions for injunction
and habeas corpus have been vehicles to thereby demonstrate the unconstitutional and
criminal practices of The State during my eight years of ongoing divorce court battles and its
sentencing against me, these are only the evidenced effect of the broad scope of the
unconstitutionality that I present.
5 Similarly, my case has not been granted relief; instead interlocutory injunction and habeas
corpus have evidently been denied based on statutory civil timeliness and lack of custody,
while RICO and criminality is under no such bar to justice.
6

Steve Delchin, Sixth Circuit Appellate Blog Rooker-Feldman 101: Sixth Circuit Attempts to
Clarify the Rooker-Feldman Doctrine as It Reverses A District Court’s Ruling Regarding the
Constitutionality of Ohio’s “Vexatious Litigator” Statute.

7 Case Briefs LLC, Texaco, Inc. v. Pennzoil, Co., 2021
Page 5 of 37

Austin v. California

Monday, June 14, 2021

Furthermore, although statistical analysis of Rooker-Feldman is beyond the scope of this
petition, and it may be inconsequential to this presentation anyhow, it appears that a great
number of cases grieved that implement this Rooker-Feldman8 course of action do so because of
the divorce industry or community property laws. Beyond divorce cases, the remaining court
battles that have led to this pattern of questionable ownership, and its ensuing social unrest, I
wager can be attributed to corporatism, as in the aforementioned case of Texaco. Therefore, I
suspect that my case reveals the need for clarification of the functionality of Rooker-Feldman,
versus the disfunction of Amendment Eleven, whereas The State’s community property and the
corporate personhood of the Fourteenth Amendment are all inextricably entwined.9

8

Similarly, cases as mine that involve the divorce industry also site qualified immunity, since it
frequently arises in civil rights cases, particularly in lawsuits arising under 42 U.S.C § 1983 and
Biven v. Six Unknown Named Agents.
9

California Family Code defines the duty owed between spouses as the same as owed
between business partners, and specifically references California Corporations Code section
16404.
Page 6 of 37

Austin v. California

Monday, June 14, 2021

Jurisdiction
The date on which the United States Court of Appeals decided my case was 18 May, 2021.
I believe my case falls both under SCOTUS appellate jurisdiction, and exclusive original
jurisdiction—not one, versus the other. My case falls under appellate jurisdiction, under an
exception to the Eleventh Amendment, based on dismissal of my petition(s) to the district for
injunction against state officials regarding the false imprisonment that is my restraining order,
subsequent seek-work orders, wage garnishment orders, property appropriation, and other
criminalities, including RICO allegations. My case also falls under appellate jurisdiction based
on my petition for writ of habeas corpus, or otherwise release from my restraint ordered, devoid
of due process.
Nevertheless, I plead my case also falls under SCOTUS original jurisdiction for a number of
reasons, such as Article III, Section 2, “...between a state, or the citizens thereof..., ” versus
Rooker-Feldman, as previously mentioned. My case also pertains to The State’s illegal practice
of confederation through its state marital and divorce reciprocity, child support across state lines,
restraining orders across state lines (and restraining orders in general), marital status generally—
which could include the marital status of Ambassadors and Consuls on domestic soil—and
further challenges the dictates of Amendment Eleven as superior to the Bill Of Rights.
My case has challenged the validity of California’s Sovereign Immunity in general, since The
State is not the sovereign in the first place. Instead, We, The People—implying the individuals
are the sovereign under Article IV, Section 4.
My case has not been refuted by the defendants, none of whom have responded to me, even after
being served by the U.S. Marshal Service at the district level, and evidently similarly served by
The Ninth Circuit. Regardless of the no-contest stances of the defendants, the petitions regarding
this grievance have so far all been denied, and the cases dismissed with prejudice.
At the divorce court level my case is riddled with both unchallenged fraud, peijury and
racketeering, allegations that are described in my petitions.10 These predatory crimes have all
been ushered under the watchful eye of the defendants. Therefore, it appears that both the district
and the appellate could have implemented injunctions and habeas corpus as petitioned,
regardless of Amendment Eleven and Rooker-Feldman limitations. Therefore, I plead The
Supreme Court consider my case on both grounds of appellate, and on original jurisdiction.
10 “Extrinsic fraud is conduct which prevents a party from presenting his claim in court.”
Kougasian v. TMSL, Inc., 359 F.3d 1136,1140 (9th Cir. 2004) (quoting Wood v. McEwen, 644
F.2d 797, 801 (9th Cir. 1981)). No such exception applies, however, in the case of intrinsic fraud
(such as perjury), which “goes to the very heart of the issues litigated in the state court action.”
Lewis v. L.A. Metro. Transit Auth., No. CV 19-1456 PSG (JPRx), 2019 U.S. Dist. LEXIS 208440,
at *7 (C.D. Cal. Sep. 10, 2019) (quoting Green v. Ancora-Citronelle Corp., 577 F.2d 1380,1384
(9th Cir. 1978)). Samuel D. Harrison, American Bar Association, February 04, 2020. Fraud
vitiates everything, thereby laying the foundation for this suit.
Page 7 of 37

Austin v. California

Monday, June 14, 2021

Constitutional and Statutory Provisions Involved
Below are Constitutional Provisions involved in my case.
The Bill of Rights; I plea to especially focus on consideration of these Amendments, as follows:
• Amendment I (Church v. State Marriage/Divorce, Free Speech, Press, Association and
Assembly with one s own family under a “civil” restraining order).
• Amendment II (firearm confiscation and restriction [United States v. Miller, 307 U.S. 174
1939] ).
• Amendment IV (Illegal seizure of real estate and search through required CPS interview,
disguised as “witness to domestic violence. ” State DOJ threat to search forfirearms without a
warrant).
• Amendment V (Double Jeopardy under criminal v. civil prosecution, Due Process).
• Amendment VI (Speedy and Public Trial, Right to Counsel).
• Amendment VIII (Cruel and Unusual Punishment).
• Amendment IX (Unequal Rights distributed).
• Amendment X (Thereby, “...powers delegated to the United States by the Constitution,
prohibited by it to the states... ”).
Further Amendments referenced within this Petition are as follows:
• Amendment XI (State Sovereign Immunity and its Confederation).
• Amendment XIV (Corporate Personhood, and Community Property, as inextricably entwined
with marital collectivism and the divorce industry).
• Amendment XVI (I mention the unfair and unequal taxation of a “Single, ” as opposed to
“Married, ” or, “Marriedfiling single, ” as it relates to Amendment IX, “...construed to deny or
disparage others... ”).
• Amendments XVIII and XXI (Drug and Alcohol Courts that adjudicate, against Amendment I,
as religious punishments).

Page 8 of 37

Austin v. California

Monday, June 14, 2021

Further Constitutional Provisions within this Petition are as follows:
• Supremacy Clause.
• Obligation of Contracts (Titles ofNobility, Bills of Attainder).
• Case and Controversy Clause.
• Commerce Clause.
• Extradition Clause.
• Fugitive Slave Clause.
• Full Faith and Credit Clause.
• Guarantee Clause.
Further Statutes involved in my case are as follows:
• Rooker-Feldman [Rooker v. Fidelity Trust Co.. 263 U.S. 413 (1923) and District of Columbia
Court of Appeals v. Feldman. 460 U.S. 462 (1983)]
• 42 USC § 1983 and Bivens v. Six Unknown Named Agents. A plaintiff can sue for damages
when state officials violate an individual’s Constitutional rights or other federal rights.
• The entire text of California Family Law (Challenging the subjectivity and collateral venue of
“family, ” thereby suggesting restoration of individual rights through federalism).
• RICO Act, 18 U.S. Code CHAPTER 96
• Various Federal and State Criminal and Civil Codes as damages referred in Appendix C
and Related Cases to 3:20-CV-00900-CRB.

Page 9 of 37

Austin v. California

Monday, June 14, 2021

Historic Foundation
Laying the foundation for my case, a series of cases have been decided, and subsequent
Amendments ratified, beyond those listed in The Bill of Rights. Since the nation’s founding in
1776, apparently a great deal of legal argument has continued regarding jurisdiction over such
cases of State versus Federal jurisdiction, as does mine. For example, in the case of Farquhar v.
Georgia in 1791, the U.S. Circuit Court for the District of Georgia ruled that an individual could
not sue a state in a federal circuit court because the Constitution's grant of original jurisdiction to
the Supreme Court was exclusive. However, in the 1793 decision in Chisholm v. Georgia
[Chisholm v. Georgia, 2 U.S. 2 Dali. 419 419 (1793)], the Supreme Court ruled that Article III
permitted an original suit in the Supreme Court against a state by a citizen of another state.
Congress and the states reacted quickly to what many saw as a threat to the sovereignty of the
states and adopted the Eleventh Amendment to the Constitution, which prohibited such suits in
the federal courts. However, also in 1793 the U.S. Circuit Court for the District of Pennsylvania
ruled that the circuit courts could exercise criminal jurisdiction over a foreign consul, despite
Article Ill's provision that the Supreme Court exercised original jurisdiction over "all cases
affecting" consuls in the case of United States v. Ravara [United States Supreme Court. US v.
RAVARA (1793)].
Further, in his 1803 opinion in Marbury v. Madison, Chief Justice John Marshall stated that
Congress could not confer the Supreme Court's original jurisdiction on any other court. In the
1838 case of Rhode Island v. Massachusetts [Rhode Island v. Massachusetts :: 37 U.S. 657
(1838)], the Supreme Court upheld this jurisdiction in response to a claim of sovereign
immunity. The Court ruled that the states had surrendered a portion of their sovereignty under the
Constitution and in ratifying it subjected themselves to the federal judicial power in disputes that
would otherwise have been settled through diplomacy or force by truly independent states.
The Supreme Court did not settle the question until the 1888 decision in Ames v. Kansas
[Ames v. Kansas - 111 U.S. 449,4 S. Ct. 437 (1884). Rule : U.S. Const, art. Ill, § 1], in which
the Court ruled that parties embraced by the Supreme Court's original jurisdiction could bring
suit in any court with jurisdiction over the parties or subject matter.
The Supreme Court has narrowly interpreted its constitutional grant of original jurisdiction. In
Marbury v. Madison, the Supreme Court ruled that Congress could not expand the Court's
original jurisdiction beyond that granted in the Constitution. Beginning with Cohens v. Virginia
in 1821 [Cohens v. Virginia, 19 U.S. (6 Wheat.) 264 (1821)], the Court held that its original
jurisdiction was defined entirely by the nature of the parties to a suit, not the subject matter. The
Court declined to hear in the first instance cases under the Constitution, laws, and treaties of the
United States unless they strictly conformed to one of the state party suits specified in the
Constitution: a suit between two or more states, between a state as plaintiff and citizens of
another state, and between a state as plaintiff and foreign citizens or governments.

Page 10 of 37

Austin v. California

Monday, June 14, 2021

Nevertheless, the Supreme Court established an important exception to this rule when it held that
the Court would hear original suits brought by the United States against a state. In the 1892 case
of United States v. Texas [United States v. Texas :: 143 U.S. 621 (1892)], Justice John Marshall
Harlan ruled that since the federal judicial power extended to "cases in which the United States
was a party," and the Court was granted jurisdiction over cases to which a state was a party, the
Court would take jurisdiction in a United States suit against a state.
United States v. Texas, whereby the United States has assumed role of propounding litigant
against states, presents similar circumstance as my case, since res judicata has barred the court
from initiating suits, so I plead the court’s consideration. In cases of original jurisdiction over
state-court losers who have appealed in federal court, it appears the Supreme Court is required to
first have evidence of state wrong-doing. In such cases, that evidence must be initiated by suit
brought by an independent propounding party, but instead of merely trying the case, instead the
Supreme Court then substitutes the identity of that propounding litigant with “United States.”
This title-swap appears to be an effective way to protect, by virtue of anonymity, individuals who
petition, but who are caught between state versus federal political battles, while simultaneously
enforcing the terms of the US Constitution against states that have not submitted to its terms.
Apparently my case fits the criteria for just such a title-swap, thereby relegating my petition’s
role to that of amicus curiae11 to a hypothetical case of United States v. California.
Writ of Certiorari with the aforementioned title-swap appears to be indicated in my case because
SCOTUS possesses original jurisdiction on the grounds that California has alienated my
Procedural Due Process, and on grounds of alienating my Substantive Due Process resulting
from vague or unclear laws (such as Seek-Work Orders and Restraining Order jurisdiction over
state lines), as well as establishing a vehicle for the incorporation of the Bill of Rights. I have
performed my duty of identifying the State of California, as represented by specific members of
its judicial branch, as defendants who have alienated my rights. I have described these
alienations in my petitions to the lower federal courts, while the lower courts have themselves
reviewed my case, but then ordered no relief from the situation. As the result, although I may
have a right to petition the government for a redress of my grievances, I have only SCOTUS as a
clear venue to do so.
Nevertheless, I again want to plead refocusing consideration on the historic roots of my case via
the actions of the defendants, who represent California. California, which became the 31st state
on September 9, 1850, has maintained from its Mexican legal roots its marital and community
property statutes, in existence since before its acceptance into the union. It is these state laws that
I challenge under US law as unconstitutional.
I plead The Court’s protection and its course of action, however that is interpreted, in relation to
my grievance, my rights, and my plea for my relief from California’s tyranny.
11 The court has appointed its own amicus curiae if neither party supports the decision of the
lower court, which it has done at least 44 times. (GOLDMAN-63 STAN. L. REV. 907)
Page 11 of 37

Austin v. California

Monday, June 14, 2021

Statement of The Case
I hereby constitutionally challenge the overall practice of the social experiment that is
California’s divorce industry by demonstrating the clear evidence that is the criminality
conducted by California that has manifest as my defacto divorce. The means utilized to wage
this weaponized divorce has been the issuance of a “civil” restraining order, although I maintain
my innocence of any non-crimes that were pursued in divorce court anyhow (see Appendix D).
My retaliatory pursuit of justice against California originated as a series of petitions consolidated
(see 3:15-cv-00504-CRB), petitions that currently have not been logically refuted, petitions that I
filed pursuant to seeking a federal injunction against state officials through an exception to the
Eleventh Amendment. These petitions were then denied and dismissed by the District. My
pursuit continued by instead petitioning the District for Writ of Habeas Corpus
(see 3:20-CV-00900-CRB) in response to what I claim is my illegal restraint without custody
issued by the divorce court, decreed via civil (versus family law) venue, devoid of due process.
This petition for Habeas was also denied.
I responded to The District’s rejection of my petition for relief from this restraining order by
identifying, and therefore requesting indictment, of the criminal conduct that premises the
illegitimacy of the very daily duties of divorce judges. My petitions to the District generally
indicted the defendants and their divorce industry, but I also identified specific instances of
blatant criminality and unethical judicial behavior in my individual case—as well as identified
RICO12 charges—all of which do potentially fall under the jurisdiction of The District.
Nevertheless, this petition was also denied for reasons of statute of limitations in civil cases, and
my lack of custody, illegally decreed, of my restraint (see 3:15-cv-00512-CRB).

12 Statute of Limitations for RICO cases appears to be five years, some claim ten years, but
remains objectively unclear for both criminal and civil cases [See United States v. Darden, 70
F.3d 1507,1525 (8th Cir. 1995)]. Falls to reason, however, that if defendants are innocent until
proven guilty in a court of law (except in divorce court, where one is guilty until proven
innocent), if racketeering has been alleged by petition, then it is not incumbent upon
propounding parties to be limited by statutes of timeliness.
Further, since criminality is prosecuted by government officials, not private parties, statutes of
limitations for both criminal and civil suits regarding allegations of racketeering ought to begin
upon adjudication following a professional investigation and, in the case of government entities
who themselves racketeer, apparently tried before a grand jury. In the case of RICO charges,
Statutes regarding Limitations on timeliness, therefore, appear to exempt propounding litigants
altogether. By default, this exemption appears to stand until the event of further clarification by
SCOTUS, and subsequent litigation by congress.
Page 12 of 37

Austin v. California

Monday, June 14, 2021

The denial and dismissal of my petition for relief from state-decreed illegal captivity, my rights
alienation, and my quest for habeas corpus grievances at The District have therefore led me to
the appellate process—the 9th Circuit Court of Appeals—which has also denied my claims with
prejudice.13 Therefore, I have neither done anything wrong by petitioning the federal government
for a redress of my grievances, through petitions for protective injunction, as well as for habeas
corpus or otherwise freedom from my illegal restraint, nor by appealing the dismissals in federal
court. These petitions are valid and under the correct jurisdiction. I maintain that I have
petitioned the correct venue(s), and have done so in a timely manner given RICO charges. It is
therefore established that in such cases the Supreme Court has appellate jurisdiction.
However, state sovereign immunity, combined with inadequacy of appellate jurisdiction for
enforcing federal law against states, led the framers to adopt the Original Jurisdiction Clause as a
means of ensuring effective enforcement of state compliance with federal law. (Therefore...) the
scope and function of the Court’s Original Jurisdiction should be refined to extend extends to all
cases involving state parties, both those satisfying state diversity requirement and those
involving federal law.14
Nevertheless, a great deal of confusion regarding correct venue has plagued my pursuit. The
resulting confusion has placed me, as an individual, into a position to assume the responsibility
to correctly choose—without referral by the courts (staffed by those who claim they cannot give
legal advise)—as to which concurrent court has jurisdiction over my case: The federal courts,
versus SCOTUS, versus some unbeknownst court.15 This unclear choice between concurrent
venues presents, since for conflicting interests the state appellate courts of California, as a
political boundary, are clearly not the correct venue [Hans v. Louisiana, 134 U.S. 1 (1890)].

13 Although California’s San Francisco Municipality does not enjoy sovereign immunity, I claim
that fact is not deleterious to this case. California is, in fact, the correct defendant, since
California’s Family Laws, Community Property Laws, and Corporate Laws, inextricably
intertwined, are ushered, adjudicated, and enforced by San Francisco’s Superior Court Family
Division, in part, via California Law Enforcement Telecommunications System (CLETS),
representing supposedly immune confederate state entities.
14 California Law Review
Vol. 82. No. 4, Symposium: Critical Race Theory (JuL 19941. pp. 787-845 (59 pages) James E.
Pfander, California Law Review, Inc.
15 I am aware of the possibility for concurrent jurisdiction by either the Judicial Panel on
Multidistrict Litigation, the U.S. Court of Federal Claims, or a military tribunal in the event of
Civil War. Nevertheless, at present no valid reason has been offered to establish that SCOTUS
is not the correct venue to petition my case, both on grounds of appellate and original
jurisdictions.
Page 13 of 37

Austin v. California

Monday, June 14, 2021

The indication for a tribunal review that is of a venue outside the jurisdiction of California’s
administration I claim is valid, regardless of the no-contest stances of the defendants. I maintain
that SCOTUS is the correct venue because my suit challenges the entire constitutionality of the
divorce industry in general, as well as the state’s community property laws and its collectivism,
generally, of which state-owned marriage is merely a sub-category.161 maintain that California’s
Appellate Court—and its sovereign immunity—is not the appropriate venue in my case, even
though the defendants have neither contested my plea for their indictments, nor for my petition
for tort reparations, nor have they even responded to my claims against them.
Furthermore, I maintain it has been inappropriate for the federal courts to have merely dismissed
with prejudice my grievances against The State, The State that has demonstrated its tyranny
through its abrogation of my individual rights. Dismissing my case with prejudice is
inappropriate, since to me the topic of my family is very important; to have my pertinent
grievances dismissed without redirecting me to the correct venue I find unconscionable, since
such redirection is not “giving legal advise,” as claimed. Instead, redirection is the most basic of
civil behavior, and the duty of those entrusted to protect the rights of the U.S. citizenry.17

16 Arguably, the broadest and most pervasive ill effect of this apparently unconstitutional
abrogation of individual rights that is collectivism is the fictitious legal instrument that is
corporate personhood, evidently based on U.S. Supreme Court. Santa Clara County v.
Southern Pacific R. Co., 118 U.S. 394 (1886). I claim this reference in support of corporatism is
in err, since every four-year-old knows that a corporation is not a person, and to suggest that
SCOTUS ever ruled otherwise is absurd. Instead, such collective group empowerment through
the abrogation of individual rights appears to be, within itself, another form of racketeering.
17 Almost every valid civil business will, free of charge, redirect its potential customers to the
correct venue. For example, The auto mechanic may state, “Sorry. We don’t fix fender dents
here, but you can take it to Acme Auto Body down the street.”
In such a case the mechanic is not giving auto body advice; he is merely redirecting the
customer to the correct venue. Similarly, The Judiciary ought to rightfully direct petitioners to
correct venues, depending on the nature of each grievance, without giving legal advice
regarding that venue.
Nevertheless, in my case, instead, the federal courts have behaved in the most uncivil and
paradoxical way. These courts have not prioritized redirecting my questionably wrong venue,
but instead have only denied my petitions altogether, apparently solely based on venue,
implying that my case propounds faulty merits. This would be similar to a mechanic telling a
potential auto body customer, “No. I will not fix that dent. That dent is not important,” thereby
giving auto body advice, when the mechanic is not qualified to do so. Therefore, paradoxically,
when The Judiciary does not redirect its petitioners to the correct venues as a priority, it
instead necessarily renders legal advice, to the contrary of its own doctrine.
Page 14 of 37

Austin v. California

Monday, June 14, 2021

Nevertheless, I became aware of Rooker-Feldman early in the process of presentation to The
District; so I also inquired about filing grievances to the Supreme Court early in the appellate
process. At the time, this appeal to a higher power was concurrent with the divorce hearings. The
request was returned with information on how to petition SCOTUS, thereby implying that my
petition was not ready to be received by the tribunal.18 Regardless, I knew that SCOTUS had
exclusive original jurisdiction over cases of grievances petitioned against The State, but my
divorce had not yet been finalized.
Therefore, one reason why confusion regarding correct venue exists, in my opinion, is because of
the very existence of Rooker-Feldman, which has revealed itself as a work-around to the
unconstitutional nature of the Eleventh Amendment, itself enacted against Article III, section 2.
Apparently if the Eleventh Amendment was valid, it would not need an exception that is RookerFeldman, while a crucial component of California’s divorce industry is the fact that it is based in
the state’s sovereign immunity. Apparently, the function of Rooker-Feldman is to reestablish the
exclusive original jurisdiction of SCOTUS over questions of constitutionality of a state’s
authority over an individual’s rights, since the Eleventh Amendment effectively alienates those
selfsame rights.
Therefore, appellate jurisdiction is not the only reason why SCOTUS is the correct venue for this
petition for relief from the unconstitutionality of California’s divorce industry, since SCOTUS
also possesses exclusive original jurisdiction. My petition prays relief from California’s stateowned marriage/divorce industry, generally, while SCOTUS exclusively possesses original
jurisdiction to hear disputes between different states. SCOTUS hears disputes between different
states, while the entire jurisdiction of marriages, divorces, and restraining orders across state
lines, such as mine, is unclear, at best. To show an example of this lack of clarity, The State’s
child support payment reimbursements are clearly confederated across state lines. In fact, my
case challenges the validity of state-owned marriages, divorces, family law, community property,
corporatism, restraining orders in general, religion as decreed punishment, and the practice of
trying criminal cases under civil venue, since these are forms of the political nature that is
collectivism, collectivism that is contrary to my individual rights; I therefore allege these are
unconstitutional.
Further, my case offers the revelation of racketeering that The State utilizes to reverse or correct
the ill effects of California’s collectivism that it causes. In the case of my “civil” restraint without
custody, restraint has clearly been decreed to generally serve the political effort that is
collectivism, the implementation of the order proves cruel and unusual in its punishment against
me as an individual, and in my case, in exchange for no punishable crime whatsoever.

18 Although final judgement of the divorce has been decreed, total pension assets have not
been distributed, since those were to be consolidated and divided 50/50 per Judge Wiley’s
order. I have no power of enforcement over this continued pattern of unfair divorce hostility
waged against me. Therefore, I offer this incidence of non-division of pensions as evidence to
back my claims of weaponized and legislated domestic hostility, as premised in this petition.
Page 15 of 37

Austin v. California

Monday, June 14, 2021

Lastly, as the result of what has been revealed as California’s judicial experimentation, its
political stance has effectively escalated social unrest instead of domestic tranquility, while it
simultaneously demands from its residential US Citizens respect for The State’s authoritarianism
and tyrannical laws. To demonstrate this escalation is the fact that although I have not been
charged with a crime, but suffer a “civil” restraining order anyhow, evidently contacting
members of my family from across state lines (or even sending my only son a birthday card
through the legal means) is considered contemptuous—possibly a criminal charge.
Whether The State could, or would, extradite and punish me for this supposed contempt is
unclear, in accordance to the Fugitive Slave Clause. Nevertheless, that ridiculous level of
authoritarianism is not far fetched, since state lines neither protects citizens from the obligation
to reimburse state coffers given child support as its excuse, nor do those lines protect the
reciprocity of license suspension. This tendency for California to exacerbate and escalate legal
problems, based partially in ushering fear of state enforcement of its vague laws, is evidence of
The State’s collective intent toward weaponized authoritarianism and legalized plunder.
To further orient the court into the individual details of my case, I have provided Appendix E for
consideration a recap of the incident that led to the divorce, although my “guilt or innocence” in
my alleged non-crime that has been prosecuted by the family court anyhow, is not within the
scope of this petition. This is described in Case 3:20-cv-00900-CRB, Document 31, Amendments
Regarding Document 22, ORDER Dismissing Petition with Leave To Amend, Filed 08/27/20,
Background of The Restraint, Page 7. This Appendix describes family matters and the situation
that set the stage for the series of incidents that led to my restraint, and hence, has resulted in the
railroading of my de facto divorce that has been committed by the defendants.

Page 16 of 37

Austin v. California

Monday, June 14, 2021

More About Original Jurisdiction
Evidently, SCOTUS possesses exclusive original jurisdiction over interstate commerce—such as
marriage and divorce status across state lines—maybe over community or corporate property
versus individual ownership across state lines—racketeering, and criminality committed by
officials under color of law enforcement, including alienation of rights. I maintain that it is
especially incumbent upon the federal government to investigate and try cases of clear criminal
conduct committed by state officials against its US residential citizens, and even more incumbent
given clear RICO allegations that can be proven by merely asking a group of strangers if they
have ever been legally divorced. In California about half of adult residents asked will say “yes, I
have been divorced,” while some may even state, “frequently.”
Since the Supreme Court’s original jurisdiction extends to cases demonstrating wrongful actions
involving various public officials, and I have no ability to bring suit against the criminality of
state officials, my case propounds the need for indictment of these defendants under criminal and
RICO statutes. Therefore, by many counts SCOTUS is the correct venue for my petition(s) for
relief via my grievances against California’s divorce industry. Therefore my stance is that only
when such criminality is decreed by a valid tribunal can I rightfully proceed with civil amends.
Regardless, my case has also revealed a Catch 2219 in Rooker-Feldman regarding my right to
petition the government for a redress of my grievances. Whereas Rooker-Feldman appears to
further exclusivity of SCOTUS Original Jurisdiction over state cases, district and appellate
circuit reviews are required to review these cases anyhow, even though apparently it is
questionably legal for these federal courts to do so. In state cases involving rights alienation or
other federal issues, district court review, as well as appellate court review appears to be a
requirement per SCOTUS gatekeepers anyhow, even though SCOTUS maintains exclusive
original jurisdiction over these cases. This dilemma, apparently caused by Rooker-Feldman as a
work-around to Amendment Eleven, has placed me into a morbidly difficult position, as I have
merely pursued justice20 along questionably wrong venues against the wrongful dictates of
California anyhow, regardless of case dismissals.
Lastly, Article III, section 2 also reads, “In all Cases affecting Ambassadors, other public
Ministers and Consuls, and those in which a State shall be Party, the supreme Court shall have
original Jurisdiction.” Therefore, since many Ambassadors, public Ministers, and Consuls are
also married, and possibly even themselves divorced, my case petitions to submit to the correct
venue that is SCOTUS, both under appellate jurisdiction and under original jurisdiction.

19 Catch 22 refers to a dilemma or difficult circumstance from which there is no escape
because of mutually conflicting or dependent conditions.
20 “He restoreth my soul: He leadeth me in the paths of righteousness for His name's sake.”
Psalm 23:3.
Page 17 of 37

Austin v. California

Monday, June 14, 2021

Pleading the Exceptionally Common Nature of My Case
I am aware that SCOTUS has generally accepted state party cases dealing with boundary and
water disputes, but it has been much less likely to field original cases dealing with contract
disputes and other subjects not deemed sufficiently substantial for the Court's resources.
However, in my case, the wrongful State Institution of Marriage is largely neither a contractual
dispute, nor is it a subject that is unsubstantial.
Instead, my case is a venue dispute, a jurisdictional dispute, and a civil rights dispute. My case
propounds the overall question “Who, in reality, owns the marriage—The State, or its individual
US citizens who freely associate and reside within it?” This question implies a territorial
boundary dispute, including intellectual property, since California claims that it is a “community
property state,” when no such community has ever been proven to even exist. Therefore, my case
presents the institution of marriage—holy matrimony—as a boundary dispute between church
and state, and between the right of individuals to freely associate and assemble versus the
obligatory institution of The State.
I maintain the answer to that question suggests clarification by SCOTUS, since The State claims
to license marriages, which clearly is itself a problem, while The State as well racketeers the
solution to that problem by selling no-fault divorces.
Yet, that State-mandated solution causes many more legal problems, and always has, especially
problems with individual identity under its community property laws. For example, individual
property ownership has the legal tradition that has been adopted to identify individuals from one
another—and therefore to establish accountability and heritage rights—and has accomplished
that by use of an inherited surname. For example, my name is “Gregory Austin,” which includes
my individual name, and the surname of my father; my name is not “Gregory California.”
Therefore, California is instead the rightful defendant in my case, my case which propounds the
loss of my property, property which has been outright stolen through CA’s legalized plunder.
So far, federal courts have not granted me relief pursuant to my petitions against the divorce
industry, even though each state directly dictates to the federal government “Married,” “Single,”
or “Married filing single” filing status on its 1040 Sole Proprietorship tax forms, apparently
against the Supremacy Clause. California is clearly a party to the same income taxation regimen
as the federal taxation system, since it issues these statuses in the first place. California then
taxes these statuses on its 540 State Sole Proprietorship tax forms, given the expectation that a
filer’s State 540 form and his 1040 form will both demonstrate similar Married/Single status.
Therefore, since California dictates the terms of federal taxation statutes, SCOTUS again has the
original jurisdiction to consider merits regarding the overall institution of Marriage and its
correlating Divorce Industry.

Page 18 of 37

Austin v. California

Monday, June 14, 2021

Further disheartening is the fact that the Supreme Court's original docket has always been a
minute portion of its overall caseload. Between 1789 and 1959, the Court issued written opinions
in only 123 original cases. Since 1960, the Court has received fewer than 140 motions for leave
to file original cases, nearly half of which were denied a hearing. The majority of cases filed
have been in disputes between two or more states.21 Therefore, it appears that state sovereign
immunity of the Eleventh Amendment continues to interfere with federal hierarchy as pertaining
to an individual’s right to petition.
Nevertheless, sovereign immunity of a state has three main exceptions. First, as in my original
district-level petitions, The Eleventh Amendment does not stop a federal court from issuing an
injunction against a state official who is violating federal law. Although the state official may be
abiding by state law, he is not permitted to violate federal law, and a federal court can order him
to stop the action with an injunction [Ex Parte Young, 209 U.S. 123 (1908)]. The second
exception is congressional abrogation, and the third is voluntary waiver. The constitutionality of
congressional abrogation of my rights thus far, to instead serve collectivism, is the topic of this
suit, whereas the RICO limits on timeliness are vague.
Moreover, the Eleventh Amendment does not automatically protect political subdivisions of the
state from suability [Moor v. County of Alameda, 411 U.S. 693 (1973)]. The main factor is
whether the damages would come out of the state treasury [Hess v. Port Authority Trans-Hudson
Corp., 115 S. Ct. 394 (1994)].22 If the state would have to pay for damages from the state
treasury, then the Eleventh Amendment will serve as a shield from liability. Other factors may
include the amount of state control and how state law defines the subdivision, although the
Supreme Court has never issued a comprehensive guideline.
Further, Eleventh Amendment immunity does not protect municipal corporations or other
governmental entities that are not political subdivisions of the state, such as cities, counties, or
school boards. Therefore, I claim that marriages and their state institution, as well as San
Francisco Superior Court as a municipality, are not protected by the Eleventh Amendment,
although California state law codifies and enforces Family Law and its “civil” restraining orders
through CLETS anyhow.

21 Federal Jurisdiction Center
22 This ruling appears to also require interpretation as it applies to my case, since it could be
construed to direct conflict with Article I, Section 10, Clause 1, imposing upon the States the
duty not to “make any Thing but gold and silver Coin a Tender in Payment of Debts...” The
duty of California is to repay its legal damages via the instruments constitutionally provided,
either through its malpractice insurance, or I claim directly from its treasuries if The State has
been so irresponsible as to not maintain insurance.
Page 19 of 37

Austin v. California

Monday, June 14, 2021

As the result, in my case, I have accrued $2,498,418 plus personal injury claimed as a tort
reparation.23 Money damages are possible against the state officer(s), as long as the damages are
attributable to the officer himself, and are not paid from the state treasury [Scheuer v. Rhodes,
416 U.S. 232 (1974)]. However, in many cases divorce judges have elected to refuse to carry
malpractice insurance, thereby further indemnifying against their scrutiny and accountability.
Therefore, I broadly claim the stance that questions the constitutionality of any governmentcaused collectivist group that possesses rights not afforded to its free individuals as a whole,
since freedom and responsibility go hand-in-hand. I claim that if The State has the freedom to tax
and fine its US citizens, it then has the responsibility to ensure that those taxes are invested with
equity into services only to benefit its citizens, lest face tort liability. Therefore, criminal
prosecution and tort restitution of legal damages of a state and its representatives are the only
means citizens and our hierarchical government possess to hold a state accountable to its actions.
An irresponsible state that cannot be sued as the result of its sovereign immunity, coupled to a
state that licenses the practices of uninsured state judges so that they can also avoid scrutiny,
furthers the tyranny of The State through its unaccountability.
Finally, although I am not a fan of the Fourteenth Amendment for the reasons of corporate
personhood and the general group rights it has enabled, the states have surrendered a portion of
their sovereign immunity that had been preserved for them by the Constitution when the
Fourteenth Amendment was adopted.24 Therefore, Congress may authorize private suits against
non-consenting states to enforce the constitutional guarantees of the Fourteenth Amendment.
However, the Eleventh Amendment is a constitutional limit on federal subject matter jurisdiction,
and Congress can override it by statute only pursuant to the § 5 enforcement power of the
Fourteenth Amendment.2526 Therefore, I maintain that both the Eleventh and the Fourteenth
Amendments themselves are abrogations of individual rights, state versus federal jurisprudence,
rights that conflict toward civil war for similar reasons to those that caused the Civil War of the
1860s.

23 See Case 3:20-cv-00900-CRB Document 31, Amendments Regarding Document 22,
Order Dismissing Petition with Leave To Amend.
24 The supposition that ratifying the Fourteenth Amendment has established to the federal
government additional protections against state tyranny that acceptance into the union itself
has not achieved is questionable, at best.
25 https://www.law.cornell.edu/constitution-conan/amendment-11/state-sovereign-immunity
26 18 USC Ch. 115: Treason, Sedition, And Subversive Activities (1807) — Precedes
Amendment Fourteen’s § 5 enforcement power by over half a century. Posse Comitatus Act (18
U.S.C § 1385, original at 20 Stat. 152,1878) further refines the role of the US military in
domestic policies. This brings into question the utility of Amendment 14.
Page 20 of 37

Austin v. California

Monday, June 14, 2021

Under the doctrine of state sovereign immunity, evidently a state cannot be sued in federal and
state court without its consent—and it appears that consent in this case has been, by default,
issued as the result of the non-response of the defendants after being served by federal marshals
under order of the district. From the inception of my grievances to my present petition, the
defendants have not posed a defense. Therefore, the answer to the question of state suability
remains unclear, since it is unknown if California has acknowledged its wrongdoing. The stance
of the defendants is unclear to determine if The State is merely avoiding scrutiny, since it has
neither admitted nor amended that wrongdoing to me as a propounding party, or if it will not
make an admission of guilt except before a legitimate tribunal, or if California has a defensive
plan that it has not revealed in the lower federal courts, or if California’s representative
defendants are in full unified agreement with my claims, and stand in their support, thereby
implying their consent and the suability of California.
As the result, my case demonstrates that vague laws, as well as confusing and contradictory
interpretations abound in my case, at the federal level, the state level, and in divorce court.

Page 21 of 37

Austin v. California

Monday, June 14, 2021

More Racketeering
My case reveals even more incidents of racketeering committed by The State, since my Restraint
was ordered in a drug court in San Francisco, while no such court was needed. Although
California’s Prop 36 drug courts commute from a criminal venue sentencing of individuals
suspected of drug or alcohol abuse to a civil venue plus custodial spiritual rehab, the assumption
is that these individuals are themselves guilty of RICO racketeering; however, the opposite
proves true.
Since California itself is the third-party recipient of properties and assets appropriated as part of
the plea deal and sentencing, The State itself reveals its own racketeering, while utilizing as
fences and scapegoats its detained individual custodial US citizens that it then in turn accuses of
racketeering. In my case, I was required to appear before a drug and alcohol family court judge,
when no such venue was indicated, whereby a CLETS restraining order was issued, although it
was issued devoid of drug and alcohol rehab custody. This caused my instant homelessness, even
though I was the deeded real estate co-owner of a solvent San Francisco home, from which I was
restrained from even being alive within 100 yards. This errant intentional false imprisonment has
revealed the overall practice of racketeering by The State.

Page 22 of 37

Austin v. California

Monday, June 14, 2021

Reasons For Granting The Petition
I propound my case, pursuant to justice, to family unity, and therefore pursuant to national unity.
I pray the deregulation of these evil family legalities that are currently based in alienation of
individual rights.27 Progressively, my individual rights have been wrongly abrogated away, to
instead favor family doctrines, as well as favor community property law and corporate dictates,
all at the expense of the rights of individual U.S. citizens, such as myself.
We U.S. citizens originally enjoyed justice and accountability, the constitutional liberties of
religion, free speech, free press, free association, and freedom of assembly, amongst other rights.
Yet today, our religiosity, liberties and correlating responsibilities have been abrogated from the
teachings of Our Lord.28 Instead, we are bound to a series of tyrannical laws that have resulted in
rights and liberties for groups that are not afforded to our individualities. These tyrannical laws
are effective in destruction of our families, as has occurred in my herein case presented; as well,
they have obfuscated the ownership of our real and intellectual properties, and further
compromised the efficacy of our commercial businesses.
These codified family doctrines are foreign to me, to my morality, and to my customs, since they
do not reflect my values. Paradoxically, these collectivist laws neither promote family unity,
municipal unity, state unity, national unity, nor even international unity, although California
represents these laws to do exactly that. Polygamous serial marriages and divorces are against
my religious morals, save cases of actual adultery {Matthew 5:32; Matthew 9:19; Luke 16:18).
Therefore, to deny my petition acceptance to the docket of SCOTUS is to deny the very
constitutional foundation of the United States. Currently, California’s laws and statutes, as
interpreted and applied by its collectivist Family Law dictates, do not form a more perfect union
—they instead form divorces; they do not establish (or even allow) justice—they instead favor
politics; they do not insure domestic tranquility—they instead mandate personal wars of attrition;
they do not provide for the common defense—they instead abrogate our right to self-defense;
they neither provide for my welfare, nor for the general welfare—they instead render us
homeless and destitute; and they do not secure the blessings of liberty for me, for us, and for our
posterity—they instead enslave us to reimbursement to The State’s coffers, and estrange our kids.
I claim that California has no authority to pass laws construed to deny or disparage the rights of
individuals through its practice of licensing communities (e.g. Marriage Licenses), beyond
delineated geographic boundaries, such as municipalities, since intellectual property and its
patent office is a venue of the United States,29 and freemen are, by definition, not owned.
27 What therefore God hath joined together, let not man put asunder. Mark 10:9
28 Thou shalt love The Lord thy God with all thy heart, and with all thy soul, and with all thy
mind. This is the first and great commandment. And the second is like unto it. Thou shalt love
thy neighbor as thyself. On these two hang all the Law and the Prophets. Matthew 22: 37-39
29 Article I Section 8 | Clause 8
Page 23 of 37

Austin v. California

Monday, June 14, 2021

So, if California, as a collective, possesses the sovereign immunity to alienate any and all
individual rights as described in the Bill of Rights, as it has done to me, then it has the legal
power to cast anyone and everyone into the streets for no reason whatsoever, to disarm and rob
us of our legally deeded properties, to potentially violate our children, and to enslave them to its
collective. These are only some of the crimes California has committed against me. Under such a
violent and irrational system people may be apt to say to one another, “Gosh. That’s too bad what
The State did to Greg. I hope it won’t happen to me too.”
But nothing will exist to prevent it from happening to you too. You may try to “be a good
person,” or to blame yourself for all wrongs, or to blame others for them. You may try to
altruistically help others to demonstrate to The State that you are somehow a special case and an
asset to the collective—that you are loyal to The State and its criminality, that you are docile,
peaceful and law-biding, even if those laws are tyrannical—but none of it will matter. If The
State wants your belongings, or it wants to punish you to demonstrate an example to others, then
you will have no recourse but to suffer outright annihilation of your person, of your belongings,
and of your entire family.
Through Califomia’a family laws, the political dictates of collectivism are codified, enforced,
and ushered by The State. This unethical and political construct has led to The State’s predatory
divorce practices commonly known as de facto divorce. Such predatory dissolutions, the result of
The State’s no-fault marriage laws, can only be implemented through alienation of individual
rights, rights that are described in the U.S. Bill Of Rights, rights that are routinely alienated by
California, exclusively at the expense of the state’s residential individual U.S. citizens.
Some may claim that because of my pro se ignorance, I have unwittingly violated statutory time
limitations regarding this grievance by entering into the appellate process altogether. However,
my pursuit ofjustice through the district and the appellate has been for valid petitions, yet
denied. In effect, my grievance has been mismanaged by virtue of constant obfuscation and
inconsistent laws and directives, while I have remained for eight years under restraint without
custody, a cruel and unusual punishment in exchange for neither crime committed, nor even
arraigned. Instead, this restraint without custody, that which has been decreed without due
process by the drug and alcohol courts under The State’s family law system, propounds the
irrefutable criminality of California through its family law dictates, as well as propounds the
conflicted and unclear alliances to both state confederations and the federal laws that are
incumbent upon federal judges to enforce.

Page 24 of 37

Austin v. California

Monday, June 14, 2021

Moreover, it appears that a large percentage of the grievances filed that involve Rooker-Feldman
actions are the result of a state’s divorce industry. This hurtful and predatory industry, originating
at the state level, but that which is dictated to national and even international governments, is
only premised under the threat of violence that premises the authoritarianism that is The State’s
supposed Eleventh Amendment sovereign immunity. This legal immunity, coupled to
California’s confederate collectivism and its judicial “social experimentation,” can only exist at
the expense of individual rights. Therefore, I repeat my pleading to SCOTUS to consider my
case furthering the goal of unity and domestic tranquility of the nation at home.
Short of a military tribunal in the event of martial law, appeal to SCOTUS appears to be my last
ditch effort to uphold The Lord’s justice as it applies to my family, and to my nation. SCOTUS is
therefore the correct venue to not only appeal this case, but to address the confusion rendered by
the conflict of interest that is the Eleventh Amendment and Rooker-Feldman versus the Bill of
Rights. Therefore, it appears that my appropriate course of action is to plead The Supreme Court
of the United States, through its original jurisdiction, consideration of my case against
California’s family laws and their corruption and racketeering, based on the importance of the
issue to the public.

Page 25 of 37

Austin v. California

Monday, June 14, 2021

Summary
Finally, all I wanted to do was to warn my adolescent son of stranger danger, about the
possibility of child predators posed as authorities. I wanted to warn my minor son that, while
these entrusted authorities may represent their predation as harmless favors in exchange for
tickets to success in life, in reality certain predatory “favors” could instead be invitations to
contract sexually transmitted diseases, including the fatality of AIDS.
However, instead of my ability to implement my legal and moral obligation to raise my son and
to protect him from this stranger danger, what I got was jail time followed by an eight year
“civil” restraining order, homelessness, my due process and gun rights taken, my house stolen,
my family destroyed, my right to speak, write, or in any way communicate with my family
muzzled, my licenses revoked, all of which has been followed by five years of divorce court,
extended to today, eight years later.
During that time I was forced into homelessness, then to work to reimburse state coffers who
garnished my wages to support a child who was already well supported. I had my licenses
suspended, yet had my bank account violated, whereas separate account money was stolen to
support state coffers, when it was The State that caused the separation through its restraining
order in the first place. I was forced to take any job to thereby pay child support to a wife and
child who were already supported, but then ordered to find a better-paying job to thereby
increase my bracketed taxation and the reimbursement amount paid to The State.30
I have had my health, my healthcare, and its insurance destroyed, my pensions rendered
unobtainable, and I have been forced to abandon my entire city and my customs, all the result of
the dictates of California, its family laws and its divorce industry, its community property and its
corporate laws.
This outrage has only been superseded by my further frustration and terror of discovering that
when trying to correct in federal court the wrongful behavior of California’s divorce courts, that
the absolutely insane mess that is the Eleventh and Fourteenth Amendments have rendered that
pursuit cumbersome to the point of madness. Added Amendments to the Bill of Rights, which
essentially undermine it, are further messed up with statutes such as Rooker-Feldman that are
intended to remedy the mess these provisions have caused, thereby revealing the self-important
pedantic dictates over my rights that are the questionably cooperative jurisprudent relationships
between state versus federal governments, versus SCOTUS original jurisdiction.

30 To plunder your property, all The State needs is an accomplice: Your spouse, to whom The
State offers to her your portion of everything ever earned or ever loved during the marriage. A
spouse would be a fool to NOT agree to The State's offer to destroy you, since she gets to
steal your stuff and to further legally enslave you, while The State even pays her child support
across state lines to do so.
Page 26 of 37

Austin v. California

Monday, June 14, 2021

And although I am happy to serve my country if I can, my legalized nightmare that has been
caused by marital collectivism has consumed me with its depth of legal procedure, politics and
debate, when I was merely trying to inquire about potential dangers to my family. As the result of
my de facto divorce case, an irrefutable pattern of progressive, institutionalized, and engineered
conflicting interests has been revealed to me. This institution causes problems where there were
no problems before, a weaponized political institution that exists solely to replace authority with
authoritarianism. As it relates to this petition, the most pertinent forms of this wrongful legalized
authoritarianism are problems that have been intentionally cultivated through sovereign
immunity of The State, through collectivism enabled by the Fourteenth Amendment, and through
California’s opportunistic divorce industry, itself a hold-over from Mexican law, law which has
led to The State’s correlating confederation that stems from the need to enforce these collectivist
state dictates over state lines.
This revelation of endemic conflict demonstrates a warlike political pattern that appears to have
afflicted every discernible facet of our country, a cruel grip that manifests in our families,
metastasizes through Family Law and its Drug Courts, and has further grown through its
supposedly tax-paid rehabilitation institutions. All this heartache ends in hospitals, asylums, and
cemeteries for individuals and our families, while the thin veneer of fictitious and personified
legal instruments that are our collectives only appear to benefit from behind the facade.
Instead, I claim that those who are still successfully entrapped into the dictates of corporatism are
equally as misplaced and heartbroken as are those of us who have already fallen under it,
although they have not yet been severed from their own denial that anything is wrong. Family
Law and its corporate collectivism is indeed an equal opportunity destroyer of families, work
ethic, and hence, destroyer of all individuals.
I therefore plead for a writ of certiorari to present this human rights case before The United
States Supreme Court. I pray for help from my country to clarify its state institutionalized stance
on my tradition of holy matrimony, to thereby clarify the Tenth Amendment: “The powers not
delegated to the United States by the Constitution, nor prohibited by it to the States, are reserved
to the States respectively, or to the people. ” If that is true, then in the case of holy matrimony,
which entity is it that has “The powers?”

Page 27 of 37

Austin v. California

Monday, June 14, 2021

Problems Inherent to Proof Of Service
Defendants have been served, and have evidently signed and returned the court’s Summons,
executed 08/18/2020 within the deadline of 09/08/2020; however, the court has failed to bring
the defendants to trial, and the defendants have made no effort to correct their wrongdoing on
their own accord. This behavior would appear to follow their same evasive and irresponsible
pattern described in my original petitions); the defendants have made no apparent attempt to
admit to me, the propounding party and pro se IFP litigant, their wrongdoing, or to amend it, or
to address my legal damages, now for a total of eight years. Nevertheless, have pursued the same
grievance up through The 9th Circuit Court of Appeals, which has also been dismissed with
prejudice—so therefore, the Defendants have been served by summons with the grievance.
Yet, it is unclear if the defendants have further failed to respond accountably to Summons in
violation of CA Pen. Code 166, and 18 U.S. Code § 402, 9-39.000 - CONTEMPT OF COURT,
especially if the district court has failed to schedule a hearing outside of SCOTUS original
jurisdiction, while propounding parties, such as myself, are simultaneously barred from indicting
states and their officials in federal court. So, it also appears that The Federal and Appellate
Courts are merely following their guidelines that are Rooker-Feldman, while the defendants are
in agreement with my claims, or they may have some other reason for not implementing justice.
This vague a set of legal guidelines I plead indicates a need for clarification from the Supreme
Court Of The United States. I therefore have submitted under item XV of the publication GUIDE
FOR PROSPECTIVE INDIGENT PETITIONERS FOR WRITS OF CERTIORARI and Title 29:
The proof ofservice may be in the form ofa declaration pursuant to 28 U. S. C. § 1746.
However, this vague guideline that requires me to further serve a Proof of Service under a civil
venue to prosecute a criminal case, when I am for some reason barred from prosecuting criminal
cases is problematic. This is problematic because if defendants are innocent until proven guilty,
then guilt must first be established by criminal trial which is outside my ability to pursue. So
instead, Government—and in this case, the original jurisdiction of SCOTUS—pursues criminal
acts committed by states, but cannot do so under res judicata restrictions that courts cannot
simply invent cases unless a grievance is filed. This indicates a 50/50 partnership between me
and the United States. Therefore, I must file the case to satisfy the court’s need to have a
grievance to prosecute, to then substitute my name “Greg Austin” as propounding party with
“United States,” whereby evidently procedure dictates that I am relegated to amicus status, or
some other means to render me anonymous, although I have truly authored and submitted the
grievance. Upon establishing criminal wrongdoing, then, and only then, will I be able to pursue
my civil damages, or so it appears.

Page 28 of 37

Austin v. California

Monday, June 14, 2021

I have not only been relegated to petitioning in a civil venue in the face of being victimized by
criminals, I am further required to file through civil procedure a criminal case when I have no
ability to prosecute the crimes, and the civil suit cannot be filed before the criminals are found
guilty in a court of law. Nevertheless, it is VERY problematic for me to have to send via USPS
over 4000 hard copy pages to SCOTUS, to the divorce judges, to CPS, CSS, and to the DOJ—all
under different mailing addresses—when I do not have a job.
It falls to reason, therefore, that under such circumstances when state defendants are sued for
rights violations in federal court, when those defendants have already been served in federal
court, and when those state officials have neither contested the claims nor have they been
brought to trial, xmy only job is to file the grievance as a petition for writ of certiorari anyhow,
even though the civil venue is not correct—as I claim. Then SCOTUS will have been notified of
my grievance, as means to get around res judicata restrictions that courts cannot simply invent
cases. SCOTUS can then substitute my name as propounding litigant within the case title
“United States v. California Divorce Scumbags,” or the like, then prosecute the criminal case.
Again, when the criminal case is prosecuted and the defendants declared guilty or they plead
nolo contendere, I can then proceed with civil tort reparations, but not before.
If this interpretation of these pedantic laws is incorrect, then the onerousness is not incumbent
upon me. This grievance is mine, and only mine, and the procedure to petition it—or to obfuscate
it into extinction—is the duty of government’s and only of government’s.

Page 29 of 37

Monday, June 14, 2021

Austin v. California

Conclusion
I throw myself on the mercy of The Court to please grant my petition for a writ of certiorari.
Respectfully submitted,

Gregory Austin

Monday, June 28, 2021

Page 30 of 37

Austin v. California

Monday, June 14, 2021

Pertinent References And Quotes
Article III, Section 2
The judicial power shall extend to all cases, in law and equity, arising under this Constitution, the
laws of the United States, and treaties made, or which shall be made, under their authority; to all
cases affecting ambassadors, other public ministers and consuls; to all cases of admiralty and
maritime jurisdiction; to controversies to which the United States shall be a party; to
controversies between two or more states; between a state and citizens of another state; between
citizens of different states; between citizens of the same state claiming lands under grants of
different states, and between a state, or the citizens thereof, and foreign states, citizens or
subjects.

Amendment I
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech, or of the press; or the right of the people
peaceably to assemble, and to petition the Government for a redress of grievances.

Amendment IX
The enumeration in the Constitution, of certain rights, shall not be construed to deny or disparage
others retained by the people.
• “It cannot be emphasized too strongly or too often that this great nation was founded, not by
religionists, but by Christians; not on religions, but on The Gospel of Jesus Christ."
Patrick Henry
• “In trying the legitimacy of any controverted act, we ought not to bend the Constitution to our
theories, but ought to adapt our theories to the Constitution.”
Henry Wheaton
• “Tu ne cede malis sed contra audentior ito. ”
(“You should not give in to evils, but proceed ever more boldly against them.”)
Motto of the Mises Institute
• “The state is the great fictitious entity by which everyone seeks to live at the expense of
everyone else.”
Frederic Bastiat
• “And Jesus answering said unto them, Render to Caesar the things that are Caesar's, and to
God the things that are God's. And they marveled at him.”
Mark 12:17
Page 31 of 37

